Audit Report




OIG-12-066
SAFETY AND SOUNDNESS: Failed Bank Review of Security
Bank, National Association, North Lauderdale, Florida


August 7, 2012




Office of
Inspector General
DEPARTMENT OF THE TREASURY
                                      DEPARTMENT OF THE TREASURY
                                            W ASHINGTON, D.C. 20220




     OFFICE OF
INSPECTOR GENERAL
                                               August 7, 2012


            OIG-12-066

            MEMORANDUM FOR THOMAS J. CURRY
                           COMPTROLLER OF THE CURRENCY

            FROM:                  Susan L. Barron /s/
                                   Director, Banking Audits

            SUBJECT:               Failed Bank Review of Security Bank National Association,
                                   North Lauderdale, Florida


            This memorandum presents the results of our review of the failure of Security Bank
            National Association (Security), located in North Lauderdale, Florida. Chartered in
            July 1980, Security was a full-service community bank that operated one main
            office and two branches in Miami-Dade County. The Office of the Comptroller of
            the Currency (OCC) closed Security and appointed the Federal Deposit Insurance
            Corporation (FDIC) as receiver on May 4, 2012. As of March 31, 2012, Security
            had approximately $101.0 million in total assets. As of June 30, 2012, FDIC
            estimated the loss to the Deposit Insurance Fund to be $13.7 million.

            Because the loss to the Deposit Insurance Fund is less than $150 million, as set
            forth by section 38(k) of the Federal Deposit Insurance Act, we conducted a review
            of the failure of Security that was limited to (1) ascertaining the grounds identified
            by OCC for appointing the FDIC as receiver and (2) determining whether any
            unusual circumstances exist that might warrant a more in-depth review of the loss.
            In performing our review we (1) examined documentation related to the
            appointment of FDIC as receiver, (2) reviewed OCC reports of examination for the
            5-year period before the bank’s failure, and (3) interviewed OCC personnel. We
            performed our field work in May and June 2012.

            We conducted this performance audit in accordance with generally accepted
            government auditing standards. Those standards require that we plan and perform
            the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for
            our findings and conclusions based on our audit objectives. We believe that the
            evidence obtained provides a reasonable basis for our findings and conclusions
            based on our audit objectives.
OIG-12-066
Page 2

Causes of Security Bank’s Failure
OCC appointed FDIC as receiver based on the following grounds: (1) the bank had
experienced a substantial dissipation of assets or earnings due to unsafe or unsound
practices; (2) the bank was in an unsafe and unsound condition to transact business;
and (3) the bank incurred or was likely to incur losses that would deplete all or
substantially all of its capital, and there was no reasonable prospect for it to become
adequately capitalized without federal assistance.

The bank’s board of directors and management pursued an aggressive growth strategy
which resulted in significant concentrations in residential real estate and commercial
real estate loans without adequate risk management practices. In this regard, the
board failed to establish new risk limits or policies before engaging in residential land
acquisition, development, and construction lending, despite OCC’s recommendation
that the board establish limits on real estate concentrations and establish a risk
tolerance for Security’s exposure to the highly cyclical real estate market. The board’s
ineffective oversight and minimal effort to correct the bank’s deficient condition led to
deterioration in the bank’s asset quality. As asset quality declined the bank’s earnings
and capital declined, which ultimately led to Security’s failure.


Conclusion
Based on our review of the causes of Security’s failure and the grounds identified
by OCC for appointing FDIC as receiver, we determined that there were no unusual
circumstances surrounding the bank’s failure that would necessitate an in-depth
review. We provided a draft of this memorandum to OCC management for
comment. In its response, OCC stated that it agreed with our conclusion as to the
causes of the failure of Security and that it had no concerns with our determination
that an in-depth review of the bank’s failure is not warranted. The response is
provided as Attachment 1. A list of the recipients of this memorandum is provided
as Attachment 2.

We appreciate the courtesies and cooperation provided to our staff during the
audit. If you have any questions, you may contact me at (202) 927-5776 or Amni
Samson, Audit Manager, at (202) 927-0264.

Attachments
         OIG-12-066

       Attachment 1
Management Response
                                                       OIG-12-066

                                                     Attachment 2
                                                       Distribution




Department of the Treasury

   Deputy Secretary
   Office of Strategic Planning and Performance Management
   Office of the Deputy Chief Financial Officer, Risk and Control
      Group

Office of the Comptroller of the Currency

   Comptroller of the Currency
   Liaison Officer

Office of Management and Budget

   OIG Budget Examiner
